Ti

C@OQCKLE

A E-Mail Address:
Le ga 1 B a e fs contact@cocklelegalbriefs.com
st. 1923

1-800-225-6964 Web Site
(402) 342-2831
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

www.cocklelegalbriefs.com

No. 19-1298

ROGERS COUNTY BOARD OF TAX ROLL
CORRECTIONS, a political subdivision;
CATHY PINKERTON BAKER, Rogers County Treasurer,
in her official capacity; and SCOTT MARSH,
Rogers County Assessor, in his official capacity,

Petitioners,
Vv.
VIDEO GAMING TECHNOLOGIES, INC.,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE TULSA COUNTY ASSESSOR JOHN A. WRIGHT IN SUPPORT OF PETITIONERS
in the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text’and 10 point for the footnotes,

and this brief contains 3075 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 18th day of June, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL HOTARY-State of Mebraska Chih
A RENEE J.GOSS | Knee. ). than Qudraw- &.
My Comm. Exp, September 5,

Notary Public Affiant

 

 

 
